            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
      STATE OF SOUTH CAROLINA
     FOR THE FISCAL YEAR ENDED
             JUNE 30, 2003

     December 2004   A-77-05-00003




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM
Date:   December 2, 2004                                                   Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From: Assistant Inspector General
         for Audit

Subject: Management Advisory Report: Single Audit of the State of South Carolina for the
        Fiscal Year Ended June 30, 2003 (A-77-05-00003)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of South Carolina for the Fiscal Year ended June 30, 2003. Our
        objective was to report internal control weaknesses, noncompliance issues, and
        unallowable costs identified in the single audit to SSA for resolution action.

        The South Carolina State Auditor performed the audit. The Department of Health and
        Human Services (HHS) concluded that the audit met Federal requirements. In reporting
        the results of the single audit, we relied entirely on the internal control and compliance
        work performed by the South Carolina State Auditor and the reviews performed by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The South Carolina Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The South
        Carolina Vocational Rehabilitation Department (VR) is the South Carolina DDS’ parent
        agency.

        The single audit reported that:

        1. SSA was overcharged $237,151 in indirect costs. This occurred because the direct
           salary base used to calculate indirect costs was not accurate. The corrective action
           plan indicated that VR implemented an approved cost allocation plan in July 2003
           that distributes indirect costs in an equitable manner (Attachment A, pages 1, 2,
           and 6).
Page 2 – Candace Skurnik


2. Documentation was not maintained to support an expenditure charged to SSA. The
   corrective action plan indicated that procedures will be initiated to correct the
   deficiency (Attachment A, pages 3, 4, and 6).

We recommend that SSA:

1. Instruct the DDS to refund $237,151 in unallowable indirect costs.

2. Work with VR to ensure indirect costs charged to its programs are distributed in an
   equitable manner.

3. Remind the DDS to maintain documentation to support its expenditures.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency.

•   VR allowed expenditure reimbursement for employee travel not related to the
    program (see Attachment B, pages 1 and 2).

•   The State's indirect cost rate was not applied in a manner that resulted in an
    equitable allocation of indirect administrative costs to its programs (see
    Attachment B, pages 3 and 4).

Please send copies of the final Audit Clearance Document to Shannon Agee and Rona
Rustigian. If you have questions contact Shannon Agee at (816) 936-5590.




                                          S                       yÉÜ
                                          Steven L. Schaeffer

Attachments
Attachment A
  Page 1 of 6
Attachment A
  Page 2 of 6
Attachment A
  Page 3 of 6
Attachment A
  Page 4 of 6
Attachment A
  Page 5 of 6
Attachment A
  Page 6 of 6
Attachment B
  Page 1 of 4
Attachment B
  Page 2 of 4
Attachment B
  Page 3 of 4
Attachment B
  Page 4 of 4
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
